TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                        Correspondence Scan Errors and
                         Image System Limitations Can
                       Delay Resolution of Taxpayer Cases



                                       September 6, 2013

                              Reference Number: 2013-40-105




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.treasury.gov/tigta
                                                  HIGHLIGHTS


CORRESPONDENCE SCAN ERRORS                           TIGTA also found that case process limitations
AND IMAGE SYSTEM LIMITATIONS CAN                     with the CIS’s ability to identify and reassign
DELAY RESOLUTION OF TAXPAYER                         over-age inventory can result in inequitable
CASES                                                treatment of taxpayers. Finally, the Accounts
                                                     Management function’s process for tracking CIS
                                                     enhancement suggestions is inadequate.
Highlights                                           WHAT TIGTA RECOMMENDED
Final Report issued on September 6,                  TIGTA recommended that the IRS ensure that
2013                                                 employees perform required cursory reviews of
                                                     their scans and that managerial reviews of the
Highlights of Reference Number: 2013-40-105          scanning process include verification of the
to the Internal Revenue Service Commissioner         quality of the scanned documents. In addition,
for the Wage and Investment Division.                the Embedded Quality Review System should
                                                     be used to monitor the quality of work performed
IMPACT ON TAXPAYERS                                  by the ICT units, and the IRS should establish
                                                     procedures to ensure that all scanner
The Correspondence Imaging System (CIS) was          maintenance contract service appointments are
designed to automate taxpayer-generated              routinely conducted.
correspondence by scanning paper documents
into electronic images. Problems with the            To address CIS case process limitations and
correspondence scanning processes can result         over-age case inventories, the IRS should
in errors that can lead to delays and inequitable    ensure that managers monitor team inventories
treatment of taxpayers. Enhancements to the          and reassign inventory when time standards are
CIS are needed to improve case processing.           exceeded, and ensure that Planning and
                                                     Analysis staff and managers at submission
WHY TIGTA DID THE AUDIT                              processing sites review weekly case inventory
This audit was initiated to determine whether the    reports and reassign cases to ensure that the
CIS effectively and efficiently processes and        oldest cases are worked first. Lastly, the IRS
manages correspondence that taxpayers submit         should refine the process to solicit and track CIS
to the IRS to comply with their tax                  system enhancement suggestions.
responsibilities.                                    The IRS agreed to take corrective actions to
                                                     address our recommendations. It plans to
WHAT TIGTA FOUND
                                                     forward reminders to all sites stressing the
The IRS’s Image Control Team (ICT) units             importance of following scan-review procedures
scanned more than 8.1 million pieces of paper        and implement supplemental procedures at
correspondence into the CIS during Fiscal            each campus to ensure that managerial reviews
Year 2012. While the IRS has taken steps to          are performed on a regular and timely basis. As
measure the timeliness of correspondence             part of the IRS’s reorganization of the ICT units
scanning, its processes to convert paper             in Fiscal Year 2014, the IRS plans to evaluate
correspondence into electronic images result in      the quality review and monitoring needs of the
errors. These errors can affect the timely           program and take necessary actions. The IRS
resolution of cases and can delay the IRS’s          also plans to issue an alert to the sites advising
ability to provide efficient case resolution to      them of scheduled maintenance visits; ensure
taxpayers. In addition, identity theft               that site review procedures reflect the
correspondence is not always linked to existing      expectation that inventory levels will be regularly
cases in the CIS, which creates multiple cases       reported to the campus director; develop a
and can result in different employees working        consistent process for monitoring the site
with the same taxpayer and taking conflicting        Automated Age Listings; and issue reminders to
actions to resolve the taxpayer’s case.              CIS users to outline the processes for submitting
                                                     CIS enhancement suggestions.
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                          September 6, 2013


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Correspondence Scan Errors and Image System
                             Limitations Can Delay Resolution of Taxpayer Cases
                             (Audit # 201340003)

 This report presents the results of our review to determine whether the Correspondence Imaging
 System is effectively and efficiently processing and managing taxpayer correspondence. This
 audit is included in the Treasury Inspector General for Tax Administration’s Fiscal Year 2013
 Annual Audit Plan and addresses the major management challenge of Providing Quality
 Taxpayer Service Operations.
 Management’s complete response to the draft report is included as Appendix V.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by the
 report recommendations. Please contact me if you have questions or Russell P. Martin, Acting
 Assistant Inspector General for Audit (Returns Processing and Account Services).
                                 Correspondence Scan Errors and Image System
                               Limitations Can Delay Resolution of Taxpayer Cases




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          Correspondence Scanning Processes Result in Errors .................................. Page 4
                    Recommendations 1 through 3:......................................... Page 9

                    Recommendation 4:........................................................ Page 10

          Enhancements to the Correspondence Imaging System
          Are Needed to Improve Case Processing...................................................... Page 10
                    Recommendations 5 through 7:......................................... Page 13


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 15
          Appendix II – Major Contributors to This Report ........................................ Page 18
          Appendix III – Report Distribution List ....................................................... Page 19
          Appendix IV – Example of an Illegible Scan ............................................... Page 20
          Appendix V – Management’s Response to the Draft Report ....................... Page 21
          Correspondence Scan Errors and Image System
        Limitations Can Delay Resolution of Taxpayer Cases




                  Abbreviations

CIS         Correspondence Imaging System
CSR         Customer Service Representative
FY          Fiscal Year
ICT         Image Control Team
IRS         Internal Revenue Service
SSN         Social Security Number
TIGTA       Treasury Inspector General for Tax Administration
                             Correspondence Scan Errors and Image System
                           Limitations Can Delay Resolution of Taxpayer Cases




                                             Background

The Internal Revenue Service (IRS) processes individual and business taxpayer
correspondence and tax forms at 10 submission processing sites1 located nationwide,2 including
taxpayer-generated letters, responses to tax notices, amended tax returns, and claims documents.3
IRS customer service representatives (CSRs) and tax examiners located at these sites handle
millions of cases associated with the correspondence received and processed.
Correspondence is processed by CSRs from the Accounts Management function within the
Wage and Investment Division using the Correspondence Imaging System (CIS). This system is
designed to automate the handling of incoming correspondence and reduce the time needed to
resolve taxpayer requests. Once received, correspondence is routed to the Image Control Team
(ICT) unit, where the documents are stamped with a received date and tracking information such
as the tax period, Social Security Number (SSN), document type, and category code4 is
researched for inclusion with the correspondence. Finally, separation sheets are inserted between
each taxpayer’s correspondence before the documents are scanned into electronic images for
inclusion in CIS case folders. These case folders can then be accessed by CSRs and other IRS
employees who work the cases.
During Fiscal Year5 (FY) 2012, ICT units scanned correspondence relating to more than
8.1 million documents received into the CIS (each scan can be one or more pages depending on
what the taxpayer sends to the IRS). Figure 1 provides the correspondence volumes scanned into
the CIS for FYs 2010 through 2012.




1
  Submission Processing sites are the data processing arm of the IRS that process paper and electronic submissions,
correct errors, and forward data to the Computing Centers for analysis and posting to taxpayer accounts.
2
  Fresno, California; Atlanta, Georgia; Andover, Massachusetts; Kansas City, Missouri; Brookhaven, New York;
Cincinnati, Ohio; Philadelphia, Pennsylvania; Memphis, Tennessee; Austin, Texas; Ogden, Utah.
3
  A claims document received from a taxpayer is one that supports a claim for relief such as a loss carryback claim,
a disaster claim, or an injured spouse claim.
4
  The category code is a four-digit number that denotes the type or source of an adjustment and affects which
Adjustments function unit works the case.
5
  A 12-consecutive-month period ending on the last day of any month. The Federal Government’s fiscal year begins
on October 1 and ends on September 30.
                                                                                                            Page 1
                            Correspondence Scan Errors and Image System
                          Limitations Can Delay Resolution of Taxpayer Cases



                  Figure 1: Correspondence Volumes Scanned Into the CIS

                                             Fiscal Year        Fiscal Year       Fiscal Year
                                                2010               2011              2012

                  Volume of Scans              8,468,417          7,482,013          8,129,721

              Source: IRS management information reports.

As of September 30, 2012, there were a total of 914,331 open cases in the CIS inventory for
individuals. An open case is one that has not been resolved. Figure 2 lists the categories of the
open cases in the CIS.
       Figure 2: Categories of Open Cases in the CIS as of September 30, 2012

 Correspondence
      Type                Volume                           Description of Correspondence

 Identity Theft           510,192           This category involves correspondence received from
                       (55.8 percent)       taxpayers to resolve instances in which another person used
                                            their SSN for fraudulent tax-related purposes or taxpayers
                                            who may be at a heightened risk of having their SSN misused.

 Other                    157,439           This category involves correspondence received related to
                       (17.2 percent)       other issues, such as claims for loss carrybacks, injured
                                            spouse, or health care tax credits, or cases being worked by
                                            the Taxpayer Advocate Service.

 Responses to             107,448           This category involves general correspondence written in
 IRS Requests          (11.8 percent)       response to IRS-issued correspondence or sent to initiate
                                            contact with the IRS.

 Duplicate Filings         80,308           This category involves multiple use of the same SSN and a
                        (8.8 percent)       determination is underway as to whether the case should be
                                            categorized as identity theft or a mistake.

 Amended                   58,944           This category involves taxpayers who submit a revised tax
 Returns                (6.4 percent)       return.

 Source: CIS Inventory Reports for FY 2012. These cases are for individuals only, not businesses.

In addition to automating the handling of incoming correspondence and reducing the time
needed to resolve taxpayer requests, the IRS indicates that the CIS provides additional benefits
that assist in the effective and efficient processing of taxpayer correspondence that include:
        Generating letters to taxpayers to acknowledge receipt of their correspondence and
         inputting actions to the taxpayers’ accounts (e.g., stopping unwarranted balance due

                                                                                                    Page 2
                          Correspondence Scan Errors and Image System
                        Limitations Can Delay Resolution of Taxpayer Cases



       notices from being issued while the taxpayer’s case is being worked). The system also
       provides for automatic generation and recordation of interim letters when cases are not
       resolved within 30 calendar days of receipt.
      Enabling CSRs at different locations to access information needed to resolve a taxpayer’s
       case.
      Reducing the time it takes correspondence to reach the CSRs for resolution.
      Providing an inventory management system that allows for more immediate analysis and
       control of workload that tracks and monitors inventory and receipts in real time and
       making available up-to-the-minute reports for any level of the organization by document
       type and age.
      Allowing CSRs to access closed case images to assist with subsequent taxpayer contacts.

A prior Treasury Inspector General for Tax Administration (TIGTA) review
identified concerns with the timeliness of scanning correspondence and
inaccurate data in the CIS
In March 2007, we reported6 delays in the IRS’s scanning of some correspondence into the
CIS. Only 62 percent of all CIS cases had been controlled in the system within the IRS’s
14-calendar-day requirement. We also found that the CIS included inaccurate and incomplete
data. To improve management’s ability to track and analyze the timeliness of CIS processing,
we recommended that the IRS add an ICT Received Date (date correspondence was received for
scanning in the unit) field in the CIS database and require that a date stamp be used at all sites to
record the date. The IRS agreed with our recommendations to track timeliness and to address
inaccurate CIS data management, and indicated that they would initiate a formal quality review
process that includes a review of cases to help ensure the accuracy of CIS information and
completeness of cases.
Our current review was performed at the submission processing sites in Fresno, California;
Atlanta, Georgia; Andover, Massachusetts; and Austin, Texas, and at the offices of the CIS
administrators in Austin, Texas, during the period October 2012 through May 2013. We
conducted this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. Detailed information on our audit
objective, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.




                                                                                              Page 3
                              Correspondence Scan Errors and Image System
                            Limitations Can Delay Resolution of Taxpayer Cases




                                       Results of Review

The IRS has taken corrective actions to address concerns about the timeliness of scanning
correspondence that we raised in our prior report. The IRS added an ICT Received Date field to
the CIS and requires all sites to stamp the date received on correspondence to track and analyze
the timeliness of CIS processing. However, there is still inaccurate and incomplete data in the
CIS. A significant number of cases still contain errors, and documents scanned into the CIS are
often incomplete, illegible, or inaccurate. Once scanned, correspondence is not always linked to
existing taxpayer cases in the CIS, which results in some taxpayers with multiple CIS case
folders. In addition, system limitations result in the inability of the IRS to efficiently work
taxpayer cases and effectively monitor the processing of case inventory. Finally, the process to
maintain and track CIS enhancement requests is not adequate.
The problems we identified increase taxpayer dissatisfaction with how their correspondence is
processed by the IRS. For example, the IRS’s Customer Satisfaction Survey results for
taxpayers who sent correspondence to the IRS in FYs 2011 and 2012 indicate that 21 percent of
the taxpayers were dissatisfied with their experience when corresponding with the IRS by mail.
Of those who reported being dissatisfied, 52 percent reported being very dissatisfied in FY 2011
and 50 percent were very dissatisfied in FY 2012. Taxpayers commented that the IRS made
numerous requests for the same information, correspondence they had sent to the IRS was lost or
sent to the wrong function, and correspondence was passed off to numerous CSRs, which results
in confusion and long delays.

Correspondence Scanning Processes Result in Errors
Our comparison of a judgmental sample7 of 118 paper documents received from taxpayers
during the week of October 15, 2012, and the week of November 12, 2012, to the images
scanned into the CIS identified that 28 (24 percent) had one or more scan errors. These errors
can affect the timely resolution of cases and delay the CSR’s ability to provide efficient case
resolution to taxpayers. For example, errors can result in the need for the CSR to request the
same information previously provided, delay the issuance of refunds, change the order in which
cases are worked, or result in the incorrect calculation of interest owed to taxpayers. Figure 3
provides the types of errors we identified.




6
  TIGTA, Ref. No 2007-40-047, The Correspondence Imaging System Helps Manage Taxpayer Correspondence,
but There Are Delays in the Scanning Process (Mar. 2007).
7
  A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.
                                                                                                              Page 4
                               Correspondence Scan Errors and Image System
                             Limitations Can Delay Resolution of Taxpayer Cases



                                 Figure 3: Scan Errors Identified in a
                               Sample of CIS Cases Reviewed by TIGTA

              Number of
               Cases8                                  Type of Error Identified

                              Scanned documentation had missing ICT Received Date stamps and
                  20          incorrect or incomplete case tracking information, including incorrect
                              tax periods, SSNs, document types, and category codes.

                              Scanned documentation was illegible in the CIS but legible on the
                    5         paper copy provided by the taxpayer. See Appendix IV for an
                              example of an illegible scanned document.

                    2         Scanned documentation had an incorrect IRS Received Date.

                              Scanned documentation included documents not related to the
                    1
                              taxpayer’s current case.

                    1         Correspondence was not scanned into the CIS.

             Source: TIGTA analysis of sampled paper documents scanned into the CIS.

CSRs also report errors with scanned correspondence
CSRs rely on the scanned correspondence in the CIS to resolve taxpayer cases. The scanned
correspondence is used to make adjustments to taxpayers’ accounts, answer taxpayer inquiries,
and resolve other tax matters. We randomly selected 127 CSRs from four IRS submission
processing sites to participate in a survey to assess the efficiency and effectiveness of the CIS.
Figure 4 summarizes the responses provided by the CSRs.




8
    Total errors exceed the number of cases due to one case having more than one error.
                                                                                                       Page 5
                           Correspondence Scan Errors and Image System
                         Limitations Can Delay Resolution of Taxpayer Cases



   Figure 4: CSR Survey Results on the Effectiveness and Efficiency of the CIS

              Question                         Customer Service Representative Response

    How often would you say that       41 (32 percent) CSRs indicated that often their case files
    your CIS case contains             contain documents that are illegible. This results in the need
    scanned images that are not        to contact the taxpayer for another copy. Identity
    legible?                           documentation, including copies of driver’s licenses (critical
                                       to resolving identity theft cases), are most often illegible.

    Are there ever any pages           14 (11 percent) CSRs indicated that often pages are missing
    missing? For example, page         in the cases they work.
    two of a three page document
    is blank or missing?

    How often is the IRS               22 (17 percent) CSRs indicated that they often determine
    Received Date for your cases       that the IRS Received Date for the case is incorrect.
    not correct?

    How often do you find that         12 (9 percent) CSRs indicated that often the cases contain
    another correspondence             information from more than one unrelated case. One CSR
    unrelated to the case is           provided an example of 15 different taxpayer cases that were
    incorrectly included?              combined into one case.

    How often is the category          19 (15 percent) CSRs indicated that often the
    code not correct when you          correspondence is miscoded, which causes it to be
    receive the case?                  forwarded to an incorrect unit in the Adjustments function to
                                       be worked.

   Source: TIGTA survey of 127 CSRs from four IRS submission processing sites.

Many of the errors we identified and CSRs cited in survey responses result from ICT unit
employees not performing required cursory reviews. IRS guidance requires ICT unit employees
to view the scanned images of each document in each batch in order to verify that the documents
were scanned properly. In addition, we found that ICT unit employees override CIS quality
control alerts. The CIS scanners provide a quality control alert to ICT unit employees when
cases are created with correspondence from more than one taxpayer. However, the system
allows employees who receive these alerts to override them without resolving the errors before
the cases are released into the CIS database.
In addition, managerial reviews were not always being performed to ensure that scanned
correspondence was legible. Managers are generally required to review three activities per
employee per month and can select from the following categories: document preparation,
scanning, validation, or error resolution. However, some managers do not select the quality of
scanning for their reviews. We also found that the Wage and Investment Division does not use
the IRS’s Embedded Quality Review System to evaluate and monitor the performance of the

                                                                                                   Page 6
                            Correspondence Scan Errors and Image System
                          Limitations Can Delay Resolution of Taxpayer Cases



ICT units. This system is designed to capture performance data and generate management
reports for planning and training purposes as well as for evaluative purposes. Accounts
Management officials agreed that using this review system to monitor the ICT units would be an
important improvement.
CIS maintenance visits were not always routinely conducted
The scanners are not always being properly maintained to ensure that scanning produces legible
images in the CIS and system interruptions are minimized. For FY 2012, the IRS spent more
than $320,000 for scanner preventive maintenance visits. However, the Accounts Management
function has not implemented a control to ensure that every ICT unit takes advantage of routine
maintenance services. For example, maintenance visits were not always conducted in FY 2012
for three of 10 ICT unit sites because management did not ensure that the visits were routinely
conducted. In these three sites, six (14 percent) of the 44 scheduled visits were missed. These
maintenance visits are essential to the proper performance of the CIS because they include:
       Removal of dust and debris that can cause circuit boards to overheat and
        power supplies to fail.
       Roller cleaning for smoother, steadier document flow.
       Optics calibration to fine-tune image quality and performance.

Identity theft correspondence is not always linked to existing cases in the CIS
In May 2012, we reported9 that procedures did not require employees in the ICT unit to research
the CIS when scanning documents in an attempt to associate the documentation with an existing
case for the same taxpayer. We found that ICT unit employees do not always screen documents
appropriately to determine if they belong to an open case or if a new case should be opened. As
a result, multiple cases are opened for one taxpayer or one taxpayer’s case or cases being
assigned to more than one assistor. Our concerns were based on limited observations made
during a review of IRS assistance to victims of identity theft. We recommended that the IRS
revise its procedures to require that this research and association be performed. The IRS agreed
and stated that it would take corrective action by October 2012.
As shown in Figure 2, the largest category of cases open in the CIS relate to identity theft. To
better assess the extent to which identity theft correspondence is not being associated with
existing taxpayer cases in the CIS, we reviewed a statistical sample of 100 taxpayer identity theft
cases closed by the Accounts Management function between August 1, 2011, and July 31, 2012.




9
 Treasury Inspector General for Tax Administration, Ref. No. 2012-40-050, Most Taxpayers Whose Identities Have
Been Stolen to Commit Refund Fraud Do Not Receive Quality Customer Service (May 2012).
                                                                                                      Page 7
                             Correspondence Scan Errors and Image System
                           Limitations Can Delay Resolution of Taxpayer Cases



We identified that 59 (65 percent)10 of the taxpayers involved had multiple cases that should have
been linked. Figure 5 provides a breakdown of the number of separate identity theft cases in the
CIS for each of these 59 taxpayers.
                                     Figure 5: Analysis of Cases
                                    Associated With 59 Taxpayers

                                   Number                     Number of Cases
                                of Taxpayers                 per Taxpayers in CIS

                                        4                               2

                                      12                                3

                                      22                                4

                                      12                                5

                                        5                               6

                                        3                               7

                                        1                               8

                         Source: TIGTA analysis of 59 taxpayers with multiple
                         identity theft cases that were not linked in the CIS.

Based on the sample results, we project11 that 46,301 taxpayers could have multiple cases that are
not linked in the CIS. As previously stated, there are multiple cases because processes and
procedures do not require ICT unit employees to research the CIS for existing cases to associate
scanned correspondence. It should be noted that the cases we reviewed as part of this audit were
scanned into the CIS prior to the corrective action implementation date of October 2012.
However, as we have shown in this review, the extent to which taxpayers have multiple cases
that are not linked in the CIS is significant. Finally, the IRS’s response to our May 2012 report
does not clearly state the actions it was going to take to address this problem. In response to our
prior recommendation, IRS management stated:
         The IRS agrees with the need to decrease multiple open cases. Accounts
         Management is piloting processes associated with research products requiring an
         upload to CIS. Specifically targeted are the additional requests for returns and


10
   For nine of 100 identity theft cases sampled, the CIS contained only one case folder and therefore would not be
required to be linked. The percentage is calculated using 91 cases with multiple CIS cases that were not linked as
the base.
11
   Projection calculation is based on 91 of 100 taxpayers sampled.
                                                                                                             Page 8
                         Correspondence Scan Errors and Image System
                       Limitations Can Delay Resolution of Taxpayer Cases



       transcripts that are often associated with multiple controls. We anticipate that
       the processes tested during the pilot will reduce the number of multiple controls.
       Additionally, as the identity theft process continues to evolve, case resolution
       timeframes will decrease, leading to a natural reduction in the number of multiple
       cases.
To clarify this issue, management stated that they have assigned more experienced employees to
the ICT unit who screen identity theft documents to ensure that correspondence when received is
associated with existing taxpayer CIS cases.

Recommendations
The Commissioner, Wage and Investment Division, should:
Recommendation 1: Ensure that ICT unit employees perform required cursory reviews of
their scans and are not permitted to override CIS quality control alerts without effective
resolution of the error identified.
       Management’s Response: The IRS agreed to take corrective actions. Random
       reviews of the scanning process are conducted by visually monitoring the scanning of
       documents to ensure the quality of the process and that any system bypasses are solved or
       are appropriate under the circumstances. The CIS also creates a report of randomly
       selected images for review that is used in the quality assurance process. Reminders will
       be forwarded to all sites stressing the importance of following review procedures while
       scanning, as well as the importance of conducting the required quality reviews.
       Procedures will be implemented to provide for the secondary review at each campus
       location to ensure that managerial reviews are being performed on a regular and timely
       basis. Adherence to these procedures will also be addressed during Headquarters reviews
       of campus operations.
Recommendation 2: Ensure that managerial reviews in the ICT units are performed to
include a verification of the quality of the scanned documents. This verification should include a
comparison of the original document to the scanned image to ensure legibility.
       Management’s Response: The IRS agreed to take corrective actions. A reminder
       will be issued to all sites to stress the importance of adhering to existing review
       requirements during the scanning process. Supplemental procedures will be implemented
       to provide for the secondary review at each campus location to ensure that managerial
       reviews are being performed on a regular and timely basis. Adherence to these
       procedures will also be addressed during Headquarters reviews of campus operations.
Recommendation 3: Implement the Embedded Quality Review System process to track and
monitor the quality of work performed by the ICT units.


                                                                                            Page 9
                         Correspondence Scan Errors and Image System
                       Limitations Can Delay Resolution of Taxpayer Cases



       Management’s Response: The IRS agreed to take corrective actions. The ICT units
       will be reorganized in FY 2014 to the Submission Processing function, which does not
       use the Embedded Quality Review System. As a part of the transition, the IRS will
       evaluate the quality review and monitoring needs of the program, determine if an
       effective tracking mechanism exists, and take necessary actions based on the outcome of
       the evaluation.
Recommendation 4: Establish procedures to ensure that all scanner maintenance contract
service appointments are routinely conducted.
       Management’s Response: The IRS agreed with this recommendation and will
       maintain a log of scheduled visits along with any upcoming visits. Points of contact will
       be established with each of the campuses and reminder notifications will be issued to the
       contacts and the appropriate department managers. Additionally, the IRS will issue an
       alert to the sites advising them of the importance of the scheduled maintenance visits and
       the need for proper documentation of each visit.

Enhancements to the Correspondence Imaging System Are Needed to
Improve Case Processing
Limitations with the CIS’s ability to identify and reassign over-age inventory can result in the
inequitable treatment of taxpayers. In addition, although employees suggest enhancements to the
CIS, the Accounts Management function’s process to maintain and track the enhancement
suggestions is not adequate.
The CIS does not systemically identify and reassign over-age case inventory
Of the 123 CSRs we surveyed, 103 (84 percent) reported that the case inventory they were
assigned was larger than levels established by IRS guidelines. For example, 14 (11 percent)
CSRs reported that they typically have at or above 400 cases in their inventory despite IRS
guidelines that state a CSR’s case inventory should generally be limited to a maximum of
50 cases. IRS management agreed that there are times when cases assigned to CSRs may exceed
50. These excessive case inventories are caused by the high volume of cases to be worked and
managers’ inappropriate assignment of cases to CSRs whose inventory is already above the
maximum limit established by the IRS.
IRS guidelines require CSRs to work their oldest cases first after priority cases are resolved.
A priority case is correspondence that is expedited such as Operations Assistance Requests
(Form 12412) or disaster claims. Generally, the IRS defines an over-age case as a case that is
not resolved within 45 days of the IRS receipt of the correspondence. This requirement is
intended to ensure that taxpayers are provided with timely service in an equitable manner.
The CIS systemically distributes most cases based on the type of case and the skills of the CSRs.
The National Inventory Control Manager assigns the remaining cases such as identity theft,
                                                                                          Page 10
                        Correspondence Scan Errors and Image System
                      Limitations Can Delay Resolution of Taxpayer Cases



based on volume percentages, to the submission processing sites. The inventory control
managers at the sites then assign the cases to CSR group queues or to a specific CSR. However,
once the cases are assigned to a CSR at a submission processing site, the CIS does not have the
systemic capability to identify over-age inventory imbalances and reassign the cases to other
submission processing sites and/or CSRs in bulk. This inability results from the Accounts
Management function’s lack of enhancement to the CIS with needed case management
capabilities. As a result, taxpayer cases could be inequitably resolved. As a hypothetical
example:
       Taxpayer A’s case is received on April 30 and is assigned to a CSR in the
       Philadelphia, Pennsylvania, Submission Processing site. Taxpayer B’s case is
       also received on April 30 but is assigned to a CSR located at the Andover,
       Massachusetts, Submission Processing site. Taxpayer B’s case is resolved within
       the required 30 days. However, Taxpayer A’s case remains in the CSR’s
       inventory at the Philadelphia site, case processing is delayed, and the case is not
       resolved within 30 days. Taxpayer C’s case is received May 30 and is assigned to
       a CSR at the Andover site. This case is immediately worked and resolved while
       Taxpayer A’s case is still in inventory at the Philadelphia site.
       The CIS does not have the systemic capability to allow IRS officials to identify
       that Taxpayer A’s case is not being timely worked and reassign the case to
       another site for processing before the other site works a new case (Taxpayer C’s
       case). As such, taxpayers receive inequitable service with respect to the time
       frames in having their cases resolved.
Our analysis of cases in CIS inventory at each of the 10 submission processing sites between
January 5 and March 30, 2013, identified three submission processing sites (Austin, Fresno, and
Philadelphia) that had consistently high levels of over-age case inventory, while the other
submission processing sites had little over-age inventory. For example, over-age case inventory
in the Philadelphia Submission Processing site exceeded 35 percent for all 13 weeks, while the
Andover Submission Processing site’s over-age inventory did not exceed 35 percent for any of
the 13 weeks. Figure 6 provides our analysis of the over-age inventories exceeding 35 percent
for the 13-week period.




                                                                                          Page 11
                             Correspondence Scan Errors and Image System
                           Limitations Can Delay Resolution of Taxpayer Cases



                            Figure 6: Number of Weeks the Over-Age
                              Case Inventory Exceeded 35 Percent

                                                                           Number
                           Submission Processing Site                      of Weeks
                           Fresno, California                                  11
                           Atlanta, Georgia                                     0
                           Andover, Massachusetts                               0
                           Kansas City, Missouri                                0
                           Brookhaven, New York                                 1
                           Cincinnati, Ohio                                     0
                           Philadelphia, Pennsylvania                          13
                           Memphis, Tennessee                                   0
                           Austin, Texas                                       11
                           Ogden, Utah                                          0
                          Source: TIGTA analysis of inventory for the 13-week period
                          starting January 5, 2013, through March 30, 2013. Data were
                          obtained from the Accounts Management Inventory Reports on
                          the Joint Operations Center website.

Because the CIS system does not provide the systemic capability to identify and reassign
over-age case inventory, IRS management is required to obtain CIS case inventory and over-age
case inventory data from the Integrated Data Retrieval System.12 These data are generated
weekly and not daily as needed by CSR managers. Furthermore, although IRS officials informed
us that front-line managers and Planning and Analysis function staff at the submission
processing sites should be reviewing these weekly reports and rebalancing inventories as needed,
it does not appear this is occurring because there are imbalances in over-age inventory among the
various submission processing sites.
CIS enhancement suggestions were not maintained and tracked
The IRS has established a process by which managers and employees can submit CIS
enhancement suggestions to the Accounts Management function to improve system
functionality. However, the Accounts Management function’s process to maintain and track
these enhancement suggestions is inadequate.
The Accounts Management function previously maintained a database that tracked enhancement
suggestions, but this database was corrupted more than two years ago. Many of the suggestions
maintained at that time were lost. The IRS was able to recover some of the enhancement

12
  IRS computer system capable of retrieving or updating stored information. It works in conjunction with a
taxpayer’s account records.
                                                                                                         Page 12
                         Correspondence Scan Errors and Image System
                       Limitations Can Delay Resolution of Taxpayer Cases



suggestion information. However, other suggestions could not be restored, and a replacement
database was not created. In addition, the information that was reconstructed did not provide key
information needed by management, such as who submitted the request and when or what
actions were taken.
In January 2013, the IRS implemented a new process using a suggestion form that employees
complete and forward to management. The new process requires management to transcribe the
information from the suggestion forms into a spreadsheet which is used to track the suggestions
and their dispositions. However, management could not provide documentation of any CIS
enhancement suggestions initiated or tracked under this new process.

Recommendations
The Commissioner, Wage and Investment Division, should:
Recommendation 5: Develop operational review requirements to ensure that managers are
monitoring team inventories and reassign inventory when CSR inventory standards are exceeded.
       Management’s Response: The IRS agreed to take corrective actions. The Accounts
       Management Program Letter provides standard guidance regarding CSR inventory
       queues by stating that such queues will be no greater than 50 cases. However, for
       specialized programs, site management will consider the number of technicians per
       program and the volume of suspended cases when determining the optimum CSR queue
       level. Site review procedures will reflect the expectation that inventory levels are
       regularly reported to the campus director. Further, the program letter will be updated to
       ensure that site inventory reconciliations are reported to Headquarters on a quarterly
       basis.
Recommendation 6: Ensure that Planning and Analysis function staff and inventory control
managers at submission processing sites review weekly Integrated Data Retrieval System case
inventory and over-age inventory reports and reassign cases in an effort to ensure that inventories
are balanced and the oldest cases are worked first.
       Management’s Response: The IRS agreed with this recommendation and is
       developing a consistent process for monitoring the site Automated Age Listings.
       Headquarters staff will meet with campus staffs on a quarterly basis to ensure that the
       necessary Automated Age Listing reviews are completed and help to identify any
       reassignment opportunities among the sites.
Recommendation 7: Refine the process to solicit and track CIS system enhancements. This
process should include ensuring that users are aware of the process to submit enhancement
suggestions as well as ensuring that key information needed by management, such as who
submitted the request and when or what actions were taken, is tracked.


                                                                                           Page 13
                 Correspondence Scan Errors and Image System
               Limitations Can Delay Resolution of Taxpayer Cases



Management’s Response: The IRS agreed with this recommendation and will
ensure that the necessary information is captured. Reminders will be issued to all users to
outline the processes for submitting CIS enhancement suggestions.




                                                                                   Page 14
                                Correspondence Scan Errors and Image System
                              Limitations Can Delay Resolution of Taxpayer Cases



                                                                                          Appendix I

            Detailed Objective, Scope, and Methodology

Our overall objective was to determine whether the CIS is effectively and efficiently processing
and managing taxpayer correspondence. To accomplish our objective, we:
I.         Determined the effectiveness of the process to convert paper correspondence to electronic
           images in the CIS and ensure that the resulting information is complete and accurate for
           use by CSRs in resolving correspondence matters in a manner that is the least costly to
           the IRS and the least burdensome to taxpayers.
           A. Obtained and reviewed documentation of guidance followed by ICT unit employees.
           B. Evaluated whether ICT unit employees and CIS users receive sufficient training.
           C. Conducted a walk-through of the ICT units in three submission processing sites
              located in Fresno, California; Andover, Massachusetts; and Austin, Texas.
           D. Determined the number of category codes used and their purposes. In addition, we
              determined whether the codes are used for reporting and whether the resulting reports
              provide management with accurate and relevant information; for example, for case
              assignment and inventory tracking. We also determined whether CIS cases are
              correctly linked.
                1. Based on discussions with the TIGTA contract statistician, we selected a
                   statistically valid sample of 100 accounts from a population of 78,477 identity
                   theft accounts for the period August 1, 2011, through July 31, 2012. The
                   population of identity theft accounts was identified from a Master File1 extract
                   where accounts showed a Transaction Code 971, Action Code 501, input by the
                   Accounts Management function. We used an expected error rate of 7 percent, a
                   precision rate of ± 5 percent, and a confidence interval of 95 percent to select the
                   statistical sample. The extract includes revisions to IRS procedures effective
                   July 22, 2011, to have Transaction Code 971, Action code 522, input to the
                   taxpayer account when information reporting identity theft is submitted by the
                   taxpayer. We used a statistical sample so that we could project our results to the
                   population of identity theft cases. We validated a judgmental sample of cases and
                   verified that the data elements extracted matched the taxpayer account
                   information on the IRS’s Integrated Data Retrieval System.



1
    The IRS database that maintains transactions or records of individual tax accounts.
                                                                                               Page 15
                       Correspondence Scan Errors and Image System
                     Limitations Can Delay Resolution of Taxpayer Cases



         2. Reviewed the sampled cases to determine the extent to which identity theft
            correspondence is not being associated with existing taxpayer cases in the CIS.
      E. Identified and evaluated the management information reports generated to ensure that
         they are accurate and complete and provide sufficient information for oversight.
      F. Interviewed program officials to determine processes for CIS program oversight,
         future plans, and equipment maintenance.
      G. Determined if correspondence is being entered to the CIS accurately, completely, and
         legibly. We selected judgmental samples of 65 documents from the Austin ICT unit
         during the week of October 15, 2012, and 65 documents from the Fresno ICT unit
         during the week of November 12, 2012. Due to history items not being retained, only
         53 of the 65 documents selected from the Fresno ICT unit are included in our results.
         A judgmental sample is a nonstatistical sample, the results of which cannot be used to
         project to the population. We used judgmental sampling because we did not plan to
         project our results to the population of all correspondence scanned by the CIS.
      H. Surveyed randomly selected CSRs at the Fresno, California (30); Atlanta, Georgia
         (37); Andover, Massachusetts (30); and Austin, Texas (30), Submission Processing
         sites to assess satisfaction with CIS information when resolving cases and obtain
         ideas on ways of improving the system.
      I. Determined whether there are any customer satisfaction surveys related to the
         taxpayer experience with the IRS correspondence process and assessed how results
         are used to drive program direction and improve taxpayer experiences.
II.   Determined whether the IRS process for converting paper correspondence to electronic
      images stored on the CIS is efficient and the least burdensome to taxpayers.
      A. Determined which functions have and do not have CIS access and which functions
         rely on printed documents from the CIS or could use the CIS and do not have it. For
         any functions that do not have the CIS but rely on paper transshipment of CIS
         documents, we determined why the IRS has not expanded the CIS to these functional
         areas. We reviewed business cases as applicable.
      B. Evaluated the types of documents that are processed by the ICT units to determine
         whether there are aspects of operations that may be improved to reduce cost and
         burden to taxpayers.




                                                                                       Page 16
                         Correspondence Scan Errors and Image System
                       Limitations Can Delay Resolution of Taxpayer Cases



Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: 1) the case processing controls to ensure
that incoming correspondence is linked to existing cases in the CIS and accurately scanned into
the system and 2) the controls in the CIS that enable management to monitor and evaluate the
efficiency and effectiveness of work performed on cases. We evaluated these controls by
interviewing management and employees, reviewing policies and procedures, conducting tests of
CIS cases at submission processing sites, and analyzing over-age inventory and management
oversight data.




                                                                                         Page 17
                        Correspondence Scan Errors and Image System
                      Limitations Can Delay Resolution of Taxpayer Cases



                                                                                Appendix II

                 Major Contributors to This Report

Russell P. Martin, Acting Assistant Inspector General for Audit (Returns Processing and
Account Services)
W. Allen Gray, Director
Jean Bell, Acting Audit Manager
Lena Dietles, Audit Manager
Paula W. Johnson, Audit Manager
Robert Howes, Lead Auditor
Lynn Faulkner, Senior Auditor
Jackie E. Forbus, Senior Auditor
Patricia Jackson, Senior Auditor
Jeremy M. Berry, Auditor
Kathy Coote, Auditor
Nelva Usher, Auditor




                                                                                          Page 18
                       Correspondence Scan Errors and Image System
                     Limitations Can Delay Resolution of Taxpayer Cases



                                                                         Appendix III

                         Report Distribution List

Acting Commissioner
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Office of the Deputy Commissioner for Services and Enforcement SE
Chief Technology Officer OS:CTO
Deputy Commissioner, Operations, Wage and Investment Division SE:W
Deputy Commissioner, Support, Wage and Investment Division SE:W
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Director, Customer Account Services, Accounts Management, Wage and Investment Division
SE:W:CAS:AM
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Chief, Program Evaluation and Improvement, Wage and Investment Division
SE:W:S:PEI




                                                                                 Page 19
                      Correspondence Scan Errors and Image System
                    Limitations Can Delay Resolution of Taxpayer Cases



                                                                Appendix IV

   Example of an Illegible Scanned Correspondence

**************************************1*************************************
*************************1***************************.


                           ********1*********




      ********************1***********************.




                                                                         Page 20
         Correspondence Scan Errors and Image System
       Limitations Can Delay Resolution of Taxpayer Cases



                                                   Appendix V

Management’s Response to the Draft Report




                                                            Page 21
  Correspondence Scan Errors and Image System
Limitations Can Delay Resolution of Taxpayer Cases




                                                     Page 22
  Correspondence Scan Errors and Image System
Limitations Can Delay Resolution of Taxpayer Cases




                                                     Page 23
  Correspondence Scan Errors and Image System
Limitations Can Delay Resolution of Taxpayer Cases




                                                     Page 24
  Correspondence Scan Errors and Image System
Limitations Can Delay Resolution of Taxpayer Cases




                                                     Page 25
  Correspondence Scan Errors and Image System
Limitations Can Delay Resolution of Taxpayer Cases




                                                     Page 26
  Correspondence Scan Errors and Image System
Limitations Can Delay Resolution of Taxpayer Cases




                                                     Page 27
